      TESTIMONY OF FRANCIS B. WARD

   DEPUTY ASSISTANT INSPECTOR GENERAL

            FOR INSPECTIONS

U.S. DEPARTMENT OF STATE AND BROADCASTING

          BOARD OF GOVERNORS

              BEFORE THE

        HOUSE OF REPRESENTATIVES

       COMMITTEE ON OVERSIGHT AND
   GOVERNMENT REFORM SUBCOMMITEE ON
  NATIONAL SECURITY AND FOREIGN AFFAIRS

                   ON

  RULE OF LAW PROGRAMS IN AFGHANISTAN


              JUNE 18, 2008
        Chairman Tierney, Ranking Member Shays, and other
Members of the Subcommittee on National Security and Foreign Affairs.


        Thank you for inviting me and Mr. Erich Hart to discuss our Inspection
of Rule-of-Law Programs in Afghanistan. I have attached a copy of the
Inspection to this testimony.


        Advancing the rule of law (ROL) is a global objective of the
Department of State. Secretary Rice has said, “The advance of freedom
and the success of democracy and the flourishing of human potential all
depend on governments that honor and enforce the rule of law.” 1


        Rule of law is particularly critical in Afghanistan where there is a direct
connection between the lack of a workable system of governance and the
national security of the United States. The absence of a modern, functional
government sustains the Taliban and Al-Qaeda and encourages the rapid
growth of the opium trade. Confidence that the government can provide a
fair and effective justice system is an important element in convincing war-
battered Afghans to build their future in a democratic system rather than
reverting to one dominated by terrorists, warlords and narcotics traffickers.


    Our inspection took place in Washington, DC, between July 20 and
September 27, 2007, and in Kabul, Afghanistan, between October 1 and 25,
2007. 2 In Afghanistan the inspection team interviewed officers of all
embassy sections and civilian and military agencies working in the ROL

1
  Quoted from Secretary of State Condoleezza Rice’s remarks at the American Bar Association’s Rule of
Law Symposium, Capital Hilton, Washington, DC, November 9, 2005.
2
  The focus of this inspection was Department of State Rule of Law programs, but this was done in the
context of USAID, DOD and international donor activities in this field. While the OIG team consulted with
each of these institutions, it did not inspect their programs.



                                                    1
arena, including the ROL coordination office of the Combined Joint Task
Force - 82nd Airborne (CJTF-82) at Bagram, the Wardak provincial
government center, and the provincial reconstruction team (PRT) and
regional training center in Jalalabad.


      The team also met with and reviewed the documents of international
organizations and donor nation representatives, U.S. government justice
sector contractors, and Afghan judicial leaders and scholars who are
familiar with ROL programs. We also derived a general illustration of the
relationships among the major U.S. mission elements with ROL programs.
Ambassador David Newton served as our team leader and I served as his
deputy for the inspection. Erich Hart, our OIG general counsel and retired
USAF JAG officer, served as an inspector on our team.


      We reported six key judgments and made 11 formal
recommendations. This report was issued in January 2008 and we can
report some compliance activity today and will continue compliance
reporting in the future.


      First, these judgments formed the framework for our observations and
recommendations:


   1) Without ROL, the country cannot progress no matter what
      contributions are made by outsiders. There are no quick solutions.
      Implementing ROL requires a commitment by Afghan and foreign
      authorities to long-term effort and cooperation.


   2) Afghanistan’s formal civil code judicial system, like its frail police,
      corrections, and educational institutions, was destroyed in 30 years of



                                         2
3) Afghan public confidence in formal ROL structure is unlikely to
   improve without a significant reduction in the level of corruption in the
   country. Both the government of Afghanistan and the donor
   community need to demonstrate a greater commitment to fighting
   corruption at all levels.


4) Many past ROL coordination failures have been addressed with
   support from the previous ambassador and the deputy chief of
   mission (DCM), who created a senior ROL coordinator position. This
   position is where all U.S. agencies in Afghanistan, the kaleidoscopic
   international donor community, and the major legal institutions of the
   Afghan justice sector now know that they can turn for information,
   communication, and guidance.


5) Bureaucratic coordination on ROL issues has greatly improved but is
   a daunting task involving multiple participants with very different
   capacities and goals. The continuous turnover of U.S. government
   staff and the conflicting priorities among even U.S. government
   entities, in the context of the desperate straits of the Afghan justice
   sector, indicate that the challenges of the ROL coordinator will only




                                    3
        continue to grow. Thus the position continues to require strong chief
        of mission support.


    6) The many U.S. efforts to support ROL in Afghanistan are laudable for
        their professionalism and tenacity, but it is often not clear how, or
        even if, ROL efforts are being measured for success and, when the
        intense international attention wanes, whether these projects can be
        sustained.


      One important observation we made was that we could find no single
universal definition of Rule of Law. OIG has described ROL to include “the
entire legal complex of a modern state – from a constitution and a
legislature to courts, judges, police, prisons, due process procedures, a
commercial code and anticorruption mechanisms.” 3 This is a broad and
inclusive description. The FY 2009 Mission Strategic Plan for Afghanistan
includes performance indicators directly related to issues that are broken
down as elements of security, counter-narcotics, governance, justice reform,
and economic growth. Previous OIG inspection teams have focused upon
the extensive U.S. government efforts in police training and counter-
narcotics in Afghanistan. 4 This inspection addressed the aspects of ROL
not covered in those reports. In the process, the inspection team found that
since 2002 the different civilian and military agencies engaged in aspects of
ROL development have approached their tasks with different goals,
methodologies, and timelines, and have often been unaware of each other’s
efforts.


3
  Department of State, OIG Report No. ISP-IQO-06-01. Inspection of Rule-of-Law Programs, Embassy
Baghdad, October 2005, p. 5.
4
  Department of State, OIG Report No. ISP-IQO-07-07, Department of State-Department of Defense,
Interagency Assessment of Afghanistan Police Training and Readiness, November 2006. Department of
State, OIG Report No. ISP-I-07-34: Department of State-Department of Defense, Interagency Assessment of
the Counternarcotics Program in Afghanistan, July 2007.



                                                   4
    The following are the findings and recommendations of the Inspection.


The Rule of Law Coordinator - In November 2005, the previous
ambassador determined that the embassy required an ROL coordinator who
would report directly to the DCM and himself. There remain questions, both
in Washington and in Kabul, about the future of the ROL coordinator
position. At the time of our visit in October 2007, a new Ambassador and
DCM had been in the country for five months and were examining embassy
staffing and organization. One proposal would shift the ROL coordinator
responsibility to the narcotics affairs section (the INL office); another would
incorporate it in the DOJ section. The inspection team believes that any
such change would be unwise. One of the strengths of the current
coordinator is his perceived neutrality.


Recommendation 1: Embassy Kabul, in coordination with the Bureau of
Human Resources and the Bureau of South and Central Asian Affairs,
should retain the rule-of-law coordinator position, filled by a Senior Foreign
Service officer, or alternatively a federal official of comparable rank and
experience, reporting directly to the deputy chief of mission. (Action:
Embassy Kabul, in coordination with HR and Bureau of South and Central
Asian Affairs)


Update: Since the inspection, the incumbent ROL Coordinator has extended
his tour for an additional year through mid-2009 and, the incumbent reports
to the DCM. This one-person office now has one additional civilian and
Army Lieutenant Colonel Judge Advocate General officer.




                                       5
Recommendation 2: Embassy Kabul should demonstrate its commitment
to the role of the rule-of-law coordinator, through a means such as having
the deputy chief of mission attend at least one meeting of the Special
Committee on Rule of Law each month. (Action: Embassy Kabul)


Update: It is our understanding that such participation has begun.


Recommendation 3: Embassy Kabul should have the senior officer of the
embassy Department of Justice section report directly to the deputy chief of
mission with the arrival of the new rule-of-law coordinator. (Action:
Embassy Kabul)


Update: The Embassy disagreed, noting that the Department of Justice
advisors should report to the ROL Coordinator. OIG does not see a
problem with this as long as the ROL Coordinator is assigned from the DoJ.


Police-Justice Sector Coordination - The potentially largest gap in ROL
coordination is where the work of the police converges with that of the
prosecutors and judges. In Afghanistan there is a long history of lack of
cooperation between the police and the prosecutors. The U.S. military has
expended considerable effort and resources since 2005 training and
equipping the Afghan police. The embassy political-military section has
been the embassy’s liaison to those efforts and to the different U.S. military
elements in Afghanistan.
      At the time of this inspection, important discussions were taking place
on the role of the police in Afghanistan as well as the police-prosecutor
relationship. Both civilian and military U.S. agencies are involved in these
issues. A number of interviewees expressed concern about the lack of
clarity as to the role of Afghanistan’s police forces as law enforcement



                                       6
agents versus a paramilitary role in counterinsurgency operations. There is
currently a full-scale review of the police training process underway and a
new, nationwide district-based training model planned by the Combined
Security Transition Command – Afghanistan. This is an excellent
opportunity to better synchronize the law enforcement and justice sector
programs.


Recommendation 4: Embassy Kabul should require that the embassy
officer with the police training portfolio, currently with the political-military
section, attend the meetings of the Special Committee on Rule of Law on a
regular basis to provide better insight into the way the U.S. military-led
police training program deals with law enforcement issues and interfaces
with the justice sector. (Action: Embassy Kabul)


Update: Embassy Kabul agreed and such participation is underway.


Civilian-Military Rule of Law Coordination - While coordination of ROL
efforts has improved, there is room for further improvement, particularly with
the U.S. military. During our inspection, U.S. combat forces were led by
CJTF-82 at Bagram, comprised largely of two brigades of the 82nd Airborne
Division from Fort Bragg, North Carolina, and the 173rd Independent
Airborne Brigade from Italy. CJTF-82 is broken down into three brigade-
sized task forces, which together form Regional Command East and,
operating from several locations, are responsible for a dozen provinces in
that troubled region.
          During the OIG visit, civilian and military ROL officials began to
meet to improve this situation, but some tensions remain. The task force
commanders are under pressure to implement programs and obtain visible
results during the span of their deployment, and because they work



                                          7
independently, their units can execute programs quickly. Their need to act
rapidly and their tendency to operate unilaterally conflicts with the efforts of
the U.S. mission, the government of Afghanistan, and the international
community, who after several years of uncoordinated, sometimes
unsustainable or redundant ROL projects, have only recently agreed on the
need to plan and execute programs under a common strategy.


Recommendation 5: Embassy Kabul should coordinate with the Bureau of
International Narcotics and Law Enforcement Affairs, the Bureau of South
and Central Asian Affairs, Central Command, and the Combined Joint Task
Force-82’s rule-of-law coordinator to have the Embassy rule-of-law
coordinator and Washington officers expert in these programs conduct in-
depth briefings at the 101st Airborne Division headquarters and successor
commands for incoming task force commanders and Judge Advocate
General officers on rule-of-law programs and sensitivities prior to their
deployment. (Action: Embassy Kabul)


Update: INL briefed incoming ROL staff from CJTF-101 prior to the
departure from the U.S. INL also participated in the first ROL training class
at the JAG School in Charlottesville, VA. At the Embassy, INL, AID and the
ROL coordinator have provided briefings to CJTF-101 personnel. With the
assistance of INL and the Army JAG, a JAG of lieutenant colonel rank has
been assigned to assist the ROL section for one year.


Recommendation 6: Embassy Kabul should require the rule-of-law
coordinator to develop and implement with other U.S. government training
stakeholders a standardized notification of proposed training to be used and
shared by all U.S. civilian, military, and contract training organizations.
(Action: Embassy Kabul)



                                        8
Update: Embassy Kabul agreed and the ROL Coordinator has prepared the
notification.


Need for a Strategic Plan - The FY 2009 Mission Strategic Plan for
Afghanistan said “Cooperation within the international community should
make it possible to begin drawing down the Embassy Rule of Law Office.”
That assertion is contrary to the views of virtually every person or group
interviewed by the OIG team. The capacity of the Afghan justice sector is
so low that most observers, including government of Afghanistan officials,
talk about ROL development as being a “generational” program, at best.


       After almost five years of donor activities in Afghanistan, the baseline
knowledge about the formal justice sector outside of Kabul remains fairly
rudimentary. There are questions about the actual number and
qualifications of prosecutors and corrections officials, the number of cases
that are going through the courts and the true conditions of the facilities of
the justice sector.


Recommendation 7: Embassy Kabul should direct the rule-of-law
coordinator to convene a series of meetings of the Special Committee on
the Rule of Law participants, to include representatives from Combined
Joint Task Force – 82 Rule of Law office, to develop a five year strategic
plan for the rule-of-law sector to correspond with the Afghan government’s
Justice Sector Strategy and implementation plan. The plan should
incorporate specific outcome-oriented performance targets. Elements of the
rule-of-law plan should be incorporated into the Mission Strategic Plan and
the Foreign Assistance Operational Plan. (Action: Embassy Kabul)




                                       9
Update: We understand that various mission elements are drafting a five-
year strategic plan, for interagency approval by the NSC deputies, which will
align the USG’s ROL strategy with the Afghan National Justice Sector
Strategy. Also, members of the Special Committee on the ROL will then
prepare their own strategic implementation plan derived from the strategy,
once it is approved.


The Justice Sector – Formal and Informal - The government in Kabul,
with considerable international assistance, is concentrating on rebuilding
Afghanistan’s formal justice system. Nearly 30 years of civil war have left
both the physical and human infrastructure of the justice system gravely
damaged. All the elements of the formal system are not available
countrywide. The continuing insurgency makes it extremely dangerous for
government of Afghanistan officials, particularly those in the justice sector,
to establish themselves in many districts outside of provincial capitals.
Further, there is little awareness or understanding of the formal legal system
in many parts of in Afghanistan. Finally, most Afghans view the formal court
system as slow, inconsistent, opaque, costly, and corrupt. 5


Recommendation 8: Embassy Kabul, after consultation with the Afghan
government, the State Department, U.S. Agency for International
Development, and the international donors should develop a policy position
on the desirability of linking parts of the informal sector with the formal
justice system. (Action: Embassy Kabul)


Update: We understand the Embassy and its international partners have
embarked on policy development to rectify the abuses of the informal


5
 According to the Afghanistan Human Development Report 2007, produced by the Center for Policy and
Human Development (p.72), the judiciary is perceived as the most corrupt institution within Afghanistan.



                                                    10
judicial system and establish linkage between the formal judicial system with
the informal system. With Department of State and USAID support, the
U.S. Institute of Peace is completing a six-month study of how the two
systems can work in mutually supportive ways and how to encourage
support from Afghan government officials for such cooperation.


Outreach to the Provinces - Whenever Afghanistan has had a functioning
government, the rulers have striven to centralize power and administration
in Kabul. That remains true under the new constitution. Most of the
international assistance efforts are also centralized in Kabul. The ROL
programs had gotten off to a slow start and most of the training and
mentoring programs have operated primarily in Kabul. Part of the reason
for that was the continuing insurgency and deteriorating security situation.
During the course of this inspection, the OIG team observed several
programs that had established themselves sufficiently in Kabul to be able to
make serious efforts to reach the provinces where 90 percent of Afghans
live. Planned interagency outreach to the provinces has now begun in the
PRTs, the Focused District Development program and the Regional
Training Centers.


Recommendation 9: Embassy Kabul should require, prior to beginning
service in a provincial reconstruction team, that officers consult with the
rule-of-law coordinator, the narcotics affairs section, the Justice Sector
Support Program, the Corrections System Support Program, the U.S.
Agency for International Development Agency governance office, the
Afghanistan Rule of Law Program and the rule-of-law coordinators at the
Combined Security Transition Command - Afghanistan and the Combined
Joint Task Force-82 on programs relevant to his or her region. (Action:
Embassy Kabul)



                                       11
Update: After our inspection, the ROL Coordinator, INL and USAID
addressed a conference consisting of all PRT civilian and military officials.
Embassy Kabul expects to implement this recommendation before this
summer’s transfer cycle.


Corruption - Corruption is a major problem that pervades every aspect of
public life in Afghanistan. As the Afghan Attorney General told the OIG
team, “Corruption is the mother of all crimes in Afghanistan.” The Interim
Afghan National Development Strategy states, “Corruption undermines the
accountability of government, eroding public trust and reducing the
legitimacy of state institutions. Corruption is a means for Illegal Armed
Groups to maintain their hold on power structures at the provincial and
district levels, preventing the consolidation of state authority and rule of
law...” Another interlocutor said that “corruption in the justice sector will be
the death of us.” Integrity Watch Afghanistan released a survey report on
March 19, 2007, that stated that Afghan citizens believe the court system is
the society’s most corrupt institution, followed by the administrative
branches of the government, mainly in the Ministry of Interior, the
municipalities, the Ministry of Finance, and the National Security
Directorate. Corruption in the Afghan National Police is widespread and has
undermined the legitimacy and utility of the police in the eyes of the Afghan
population. 6


         The U.S. incorporates anticorruption elements in many of its programs.
Appendix C of the report details the anticorruption efforts being made by INL
and USAID in various ROL programs. This is a good beginning, but fighting
corruption in Afghanistan is a daunting prospect. The efforts by U.S.

6
    Afghanistan Human Development Report, 2007; p.84.



                                                   12
agencies and their contractors in the ROL sector are positive innovations,
but only address part of the problem of corruption that pervades all
elements of Afghan governance. Absent a concerted and coordinated
anticorruption effort by the U.S. government together with the entire donor
community and support from key Afghan leaders, critical programs like the
ROL initiative will be undermined.


Recommendation 10: Embassy Kabul should develop and implement a
coordinated anticorruption strategy to include all of the mission’s rule-of-law
institutions. (Action: Embassy Kabul)


Update: Embassy Kabul partially agreed. We understand the Government of
Afghanistan has subsequently produced such a detailed strategy and the
international donor community is developing a coordinated response. The
Embassy did recently establish an anticorruption working group within the
SCROL, chaired by the DCM.


Program Management - ROL funding is difficult to identify and to quantify.
Funding for the ROL program in Afghanistan is split among several U.S.
government agencies. There is no one place where all funds spent
specifically on ROL can be identified. ROL program funding is often
multiyear and is combined with other programs such as police training and
correction facilities, which often make identification of specific costs difficult.
ROL programs are also funded by the United Nations, other bilateral
donors, and a variety of NGOs. The result is that there is currently no way
to readily identify ROL funding and subsequently to identify duplicate
programs, overlapping programs, or programs conflicting with each other.
Afghans, while seemingly eager to embrace ROL, are confused by the




                                        13
variety of programs implemented specifically by INL, USAID, and the U.S.
military units in Afghanistan.


Funding Sources - The OIG team used documents from several different
agencies to try to identify what is being spent by the U.S. government
specifically on ROL in Afghanistan. Funding figures from one source may
not match other Department or agency funding matrices identifying funds
that are ROL specific. INL is working to identify program-specific funds for
budget requirements to balance all programs in justice and corrections
allocations. 7 INL and USAID programs identified during the OIG review
could amount to a total commitment from FY 2002 – FY 2007 of $110.4
million 8 . Funding pledged to date by the international donors, other than the
United States, is reported to be $164.8 million. 9 The commitment of funds
by the U.S. government and international donors is approximately $275.4 10
million for both the present and future. The inspectors did not review
internal controls on funds or contracts that would require a full audit, rather
than the planned inspection, but there was no apparent indication of
malfeasance in either area. Specific details of INL, USAID, and DOD
programs are included in the report attachments.

National Security Policy Directive-44 - The Department of State is
responsible for planning and implementing U.S. foreign policy under
National Security Policy Directive-44. As the pivotal organization in
reconstruction and development assistance, which includes ROL, the

7
  Funding mechanisms, such as multiyear and supplemental funds, make tracking funds and programs by
fiscal year difficult. Programs prior to FY 2006-07 often overlapped particularly with overhead and staffing
costs.
8
  The figure includes the following: $64 million for INL ROL programs and $46.4 million for USAID ROL
programs.
9
  International donors pledges include $83 million in new international donor pledges from the July 2007
Rome Conference, and former commitments by international donors of $81.8 million from the EU. Not
included are donations by the United States and donations for police programs.




                                                     14
Department would logically take the lead in ensuring that funding for justice
sector programs is coordinated and transparent. The Office of the Director
of Foreign Assistance has taken the lead in developing common definitions
and program descriptions to make activities consistently and readily
identified. Through Operational Planning, initiated in FY 2007, ROL
activities will be identified, coordinated, and evaluated, regardless of
implementing agency against common indicators and measures. Funding
for ROL programs from other agencies such as DOD can and should be
included in the Operational Plan so that there can be a fully comprehensive
picture.


The scope of this review is limited to the Department of State. However, the
OIG team encourages the Office of the Director of Foreign Assistance to
reach out to the United Nations and NGOs to coordinate funding
mechanisms. A unified summary of what funds are spent on what
programs, and in what locations, will assist the Department and the
international community to make efficient monetary commitments. As a first
step in improving this coordination, the Operation Plan will provide
information on funding and programs that international organizations and
NGOs are undertaking in the area of ROL.


Recommendation 11: The Office of the Director of Foreign Assistance, in
coordination with Embassy Kabul and the Bureau of International Narcotics
and Law Enforcement Affairs, should draft a plan in coordination with the
U.S. Agency for International Development to meet the mandate in National
Security Policy Directive-44 by developing a funding matrix to identify all



10
  INL and USAID funding for ROL specific programs estimated at $110.6 million and international donor
commitments of $164.8 million, total $275.4 million.



                                                  15
justice sector funds. (Action: Director of U.S. Foreign Assistance, in
coordination with Embassy Kabul and INL)


Update: Embassy Kabul agreed with the recommendation. The Director of
Foreign Assistance and INL has designed a process to identify and track
justice sector funding.


Thank you for this opportunity and we are prepared to respond to your
questions.




                                     16
